No. 20-1541

35u the supreme Court of the Eittiteb States

PIVOTAL SOFTWARE, INC., et al., PETITIONERS,
U.
SUPERIOR COURT OF CALIFORNIA,
CITY AND COUNTY OF SAN FRANCISCO, et al.

On Writ of Certiorari to the Court of Appeal for
the State of California, First Appellate District
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I hereby certify that the "Brief of
the Society for Corporate Governance as Amicus Curiae in Support of Petitioners"
filed in the above-captioned matter contains 3,936 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 23, 2021.

Jeremy C. Marwell
Counsel for Amicus Curiae

